           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


 THE SOCIAL SECURITY ADMINISTRATION’S
       USE OF THE LIMITATION ON
ADMINISTRATIVE EXPENSES APPROPRIATION


     September 2011   A-15-11-21170




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      September 14, 2011                                                    Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   The Social Security Administration’s Use of the Limitation on Administrative Expenses
           Appropriation (A-15-11-21170)


           OBJECTIVE
           Our objective was to review the Social Security Administration’s (SSA) unobligated
           Limitation on Administrative Expenses (LAE) account balances at the end of
           Fiscal Years (FY) 2005 through 2010 to determine whether some or all of these funds
           were needed to cover upward adjustments of prior recorded obligations, or to provide
           funding for any unrecorded obligations at year-end. In our September 2010 report,
           Quick Response Evaluation: The Social Security Administration’s Use of Limitation on
           Administrative Expenses Funds (A-15-10-21085), we determined the Agency had the
           opportunity to use more of its annual LAE funds to reduce the disability backlog and
           invest in program integrity workloads. 1 Additionally, given the increased workload
           demands facing the Agency, we asked that SSA consider using unobligated funds for
           program integrity and disability service workloads.

           BACKGROUND
           Congress authorizes an annual appropriation for the administrative costs SSA incurs in
           fulfilling the terms of the Social Security Act. These funds are appropriated under the
           LAE account. The LAE appropriation language provides SSA with the funds needed to
           administer the Old-Age and Survivors Insurance, Disability Insurance, and
           Supplemental Security Income (SSI) programs and to support the Centers for Medicare
           and Medicaid Services in administering its programs. The functions SSA performs




           1
             Program integrity workloads include continuing disability reviews and SSI nondisability redeterminations.
           SSA’s program integrity workloads improve accuracy of benefit programs, protect the integrity of the Trust
           Funds, and ensure taxpayer dollars are properly used. These program integrity efforts ensure that
           individuals receiving benefits continue to be eligible and are being paid the correct amount.
Page 2 - The Commissioner


include issuing Social Security numbers, maintaining lifetime earnings records,
processing initial claims for cash benefits, processing post-entitlement actions,2 and
adjudicating hearings and appeals cases.

Public laws 3 authorizing SSA’s annual appropriation for the period of our audit provide
that “…unobligated balances of funds provided at the end of [each fiscal year] not
needed for [that] fiscal year…shall remain available until expended to invest in the
Social Security Administration information technology and telecommunications
hardware and software infrastructure….” 4 This provision allows for the transfer of
dollars from the annual LAE appropriation to the no-year LAE appropriation for
nonpayroll automation and telecommunications investment costs.

SSA stated, 5 “Each year the agency obligates about 99 percent of its LAE appropriation.
Given the inevitability of legitimate increases to prior-year obligations, it is neither a
sound nor common fiduciary practice to obligate an entire current fiscal year
appropriation.” SSA also stated, “There are many challenges to effectively utilizing LAE
funds, and routinely, prolonged continuing resolutions (CR) contribute to those
challenges. The Federal Government consistently operates under a CR at the
beginning of each fiscal year and often does not receive an appropriation until one-
fourth or more of the fiscal year has elapsed. This frequency drives the date of many
agency purchases into later quarters and challenges the effective and efficient use of
full-year funding.”

The unobligated LAE balances at the end of each FY for FYs 2005 through
2010 ranged between $93 and $176 million. SSA did not transfer the unobligated
annual LAE balance at the end of each FY immediately to the no-year LAE


2
 Post-entitlement actions are services performed after individuals become eligible for benefits. These
services include issuing emergency payments, recomputing payment amounts, and processing address
and other status changes.
3
  For FYs 2005 through 2010, LAE amounts were appropriated under Consolidated Appropriations Act,
2005, Pub. L. No. 108-447, § 4, 118 Stat. 2809, 3161 (2004), Departments of Labor, Health and Human
Services, and Education, and Related Agencies Appropriations Act, 2006, Pub. L. No. 109-149, 119 Stat.
2833, 2877 (2005), Revised Continuing Appropriations Resolution, 2007, Pub. L. No. 110-5, § 101, 121
Stat. 8-9 (2007) (incorporating by reference the authority and conditions set forth in the applicable
appropriations Act for 2006), Consolidated Appropriations Act, 2008, Pub. L. No. 110-161, § 6, 121 Stat.
1844, 2206-2207 (2007), Omnibus Appropriations Act, 2009. Pub. L. No. 111-8, § 5, 123 Stat. 524, 800
(2009), and Consolidated Appropriations Act, 2010, Pub. L. No. 111-117, § 4, 123 Stat. 3034, 3277-78
(2009), respectively.
4
  An unobligated balance is the cumulative amount of budget authority that is not obligated and that
remains available for obligation under law. The unobligated balance at the end of the year consists of
(a) unexpired amounts, which are available for new obligations, and (b) expired amounts, which are only
available to cover adjustments to prior year obligations. For purposes of this report, we only discuss
expired unobligated balances.
5
 SSA provided us with written comments on the discussion draft on April 1, 2011, and we reference the
Agency’s statements in this report as “SSA stated” or the “Agency stated” where appropriate.
Page 3 - The Commissioner


appropriation but instead transferred funds on an ongoing basis to ensure funds
remained available to cover upward adjustments to obligations or other spending
actions chargeable to a prior FY.

The no-year LAE funds are apportioned by the Office of Management and Budget
(OMB) each FY, and include the carryover of the unobligated no-year balance at the
end of the previous FY, recoveries of prior year obligations6 realized in the current FY,
and any transfers of unobligated balances from the five previous annual LAE
appropriations. For definitions of the key budgetary terms used in this report, please
refer to Appendix D.

SSA stated that its “…nationwide system of multiple offices and their similar prudent
management of funds, results in an annual funding lapse of approximately one percent.”
SSA also stated, “A similar swing in the opposite direction, even a small one, could
mean an Anti-Deficiency Act violation.”7

SSA left approximately 1.2 percent of the annual LAE appropriation unobligated at the
end of each FY in the last 10 years and approximately 1.7 percent unobligated in the
last 30 years. Before the Social Security Online Accounting and Reporting System
(SSOARS) was implemented, 8 the Agency lapsed as low as 0.3 percent in FY 1989 and
0.6 percent in FY 1990 of the annual LAE appropriation. Since SSOARS went into
production in FY 2004, SSA has lapsed at least 1 percent per year.




6
 Recoveries of prior year obligations are the amount of cancellations of or downward adjustments to
unpaid obligations incurred in prior years. Recoveries do not accrue until after the close of the FY. For
example, reimbursable work authorizations to the General Services Administration (GSA) may be
subsequently cancelled after the close of the annual LAE appropriation.
7
  An Anti-Deficiency Act Violation occurs when one or more of the following happens: Making or
authorizing an expenditure from, or creating or authorizing an obligation under, any appropriation or fund
in excess of the amount available in the appropriation or fund unless authorized by law
(31 U.S.C. § 1341(a)(1)(A)); involving the Government in any obligation to pay money before funds have
been appropriated for that purpose, unless otherwise allowed by law (31 U.S.C. § 1341(a)(1)(B));
accepting voluntary services for the United States, or employing personal services not authorized by law,
except in cases of emergency involving the safety of human life or the protection of property
(31 U.S.C. § 1342); or making obligations or expenditures in excess of an apportionment or
reapportionment, or in excess of the amount permitted by agency regulations (31 U.S.C. § 1517(a)).
8
 SSOARS became SSA’s accounting system of record when it went into production on October 1, 2003.
SSOARS reports the financial results of SSA activities, provides financial information for management for
use in preparing the administrative budget, and provides information to properly control SSA's assets.
SSOARS receives input from SSA Headquarters, field offices, vendors, State agencies, GSA and the
Department of the Treasury. SSOARS is integrated with other systems and has online query capabilities.
Page 4 - The Commissioner


RESULTS OF REVIEW
We reviewed SSA’s unobligated LAE account balances at the end of FYs 2005 through
2010 and determined that none of the funds was needed to cover upward adjustments
of prior recorded obligations or to provide funding for any unrecorded obligations at
year-end. We found that recoveries of prior-year obligations exceeded the total upward
adjustments9and significantly increased the total unobligated balance available for
transfer to the no-year appropriation. Therefore, the Agency had the opportunity to use
more of its annual LAE funds to reduce the disability backlog and invest in program
integrity workloads.

SSA stated, “…although the prior-year recoveries exceeded prior-year upward
adjustments during the review period, the agency has no way of knowing this would
happen for every account and every year and it wisely set aside funds in case.
Reliance on recoveries only to cover upward adjustments could leave the agency
vulnerable to an Anti-Deficiency Act violation if estimated recoveries do not materialize.”

Based on our review, we found that, had SSA reviewed patterns of its prior year
obligations and performed trend analyses, the Agency would have had ample time to
identify and reallocate funds during the FY to spend on various workloads. As stated in
our 2010 report, early in the budget process, SSA has the opportunity to make different
decisions to ensure administrative funds are available to provide the most cost-effective
use of resources for the Agency’s growing workloads.

TRANSFERS OF ANNUAL LAE FUNDS AS-NEEDED

According to the Agency, it makes transfers of the annual LAE funds to the no-year LAE
appropriation on an as-needed basis. SSA stated that funds remain in prior year annual
LAE appropriations to ensure funding is available to cover upward adjustments to
obligations or other spending actions chargeable to a prior FY. The Agency provided
examples of documents dated and funded in one FY, but not recorded until the next FY.
We found that, as of the end of FY 2010, the total unobligated balance available for
transfer had increased significantly for each FY reviewed because of recoveries of prior
year obligations. As a result, for FYs 2005 through 2007, the total amount transferred to
the no-year LAE appropriation was more than the unobligated balances of the annual
LAE appropriation remaining at the end of each FY. For example, $93 million was
unobligated at the close of the FY 2006 annual LAE appropriation on
September 30, 2006; however, the Agency transferred $116 million from the FY 2006
annual LAE appropriation to the no-year LAE appropriation between FYs 2007 and
2010. The Agency was able to transfer $23 million more than the amount remaining in
the FY 2006 annual LAE appropriation on September 30, 2006 because recoveries of
prior year obligations increased the unobligated balance available for transfer.


9
 Upward adjustments of obligations reduce unobligated balances. The unobligated balances are expired
budgetary resources and available for obligation only for valid upward adjustments of obligations that
were properly incurred against the appropriation during the unexpired phase.
Page 5 - The Commissioner


Additionally, during the periods of availability we reviewed, the cumulative upward
adjustments to prior year obligations were less than the cumulative recoveries or the
unobligated balance remaining at the end of each FY. At the end of each FY, there
should be limited activity that would result in adjustments to obligations; however, our
audit showed that the recoveries of prior year obligations alone were enough to cover
upward adjustments of prior recorded obligations or to fund any unrecorded obligations
at year-end. Therefore, SSA did not need the annual LAE unobligated balances
available at the end of each FY to cover any upward adjustments to prior year
obligations. See Table 1 for the unobligated balance available, upward adjustments,
and recoveries for FYs 2005 through 2010 as of September 30, 2010.

SSA stated, “It should be noted however that from 1991 to 2003, as part of a settlement
action, SSA was required to retroactively pay time-and-a-half for overtime worked by
thousands of employees. These payments totaled $339.4 million with the largest
amount, $226.7 million, paid in 1998.” SSA also stated, “Had the agency not annually
prepared for unanticipated needs, funds would not have been available to cover this
obligation and would have subjected the agency to an Anti-Deficiency Act violation.”

The unobligated balance remaining at the end of each FY consists of both unallowed
and unobligated amounts. The Agency stated, “The unallowed amount of the annual
LAE funds consists of an amount set aside for unanticipated prior year claims or upward
adjustments and amounts returned by components late in the fiscal year.” These
unallowed amounts represent the annual LAE funds that were not put in component
allowances and the unobligated amounts represent the annual LAE funds that were
allowed to components but not obligated by the components. The Agency stated
“…there is no determination made on the amounts that are unallowed to the
components. Instead, the unallowed simply represents the difference between the
allotted amounts and the estimated funding needs for each component within the LAE
account.”

SSA also stated, “There are a number of reasons why components return funds issued
to them or lapse funds at the end of the fiscal year. For example, the agency has a
strong acquisition process focused on competition. This process often generates
awards for less than the estimated obligation and can free up funds. When possible,
these savings are utilized for other agency priorities. If they cannot be used, they may
become part of the lapse and the prior-year account balance at the end-of-the-fiscal-
year for use toward upward adjustments or subsequent transfer to the ITS [Information
Technology Systems] no-year account.”

See Table 1 for the unallowed and unobligated amounts for FY 2005 through
2010 annual LAE appropriations as of September 30 of each FY.
Page 6 - The Commissioner

                                           Table 1:
                      FYs 2005 Through 2010 Annual LAE Appropriations
                  Recoveries, Upward Adjustments, and Unobligated Balances
                                       ($ in millions)
                                                    Annual LAE Appropriation
         Description           FY 2005   FY 2006   FY 2007   FY 2008     FY 2009       FY       Total
                                                                                          10
                                                                                     2010
     Unallowed Amounts          $149      $47       $42        $55         $84         $73       $450
 Unobligated Amounts            $27       $46       $77        $64         $56         $62       $332
  Total Unobligated
 Balance Remaining at           $176      $93       $119       $119        $140       $135       $782
                11
      end of FY

       Total Recoveries
                                $180      $127      $198       $83         $153        $0        $741
     (through 9/30/2010)
     Total Upward
 Adjustments (through           $(51)     $(62)     $(96)      $(61)      $(115)       $0       $(385)
      9/30/2010)
      Total Unobligated
     Balance Available for
                                $305      $158      $221       $141        $178       $135      $1,138
      Transfer (through
          9/30/2010)
Amounts Transferred to
  the No-year LAE
                               $(301)    $(116)    $(130)      $(75)       $(50)       $0       $(672)
Appropriation (through
     9/30/2010)
      Total Unobligated
     Balances Remaining          $4       $42       $91        $66         $128       $135       $466
                          12
      (as of 9/30/2010)




10
  The FY 2010 annual LAE appropriation was able to make new obligations until September 30, 2010.
Therefore, the Agency did not record recoveries and upward adjustments until FY 2011 for this
appropriation.
11
  The unobligated balance remaining at the end of the FY is the amount of annual LAE that OMB
apportioned but was not obligated as of September 30 for FYs 2005 through 2010.
12
  The period of availability of budget authority for the FY 2005 LAE appropriation ended in FY 2010.
Therefore, the total unobligated balance remaining of $4 million must be returned to the Trust Funds.
During FY 2011, the annual LAE appropriations for FYs 2006 through FY 2010 are within their period of
availability and remain available for disbursements and/or transfer to the no-year LAE appropriation.
Page 7 - The Commissioner


RECOVERIES AND UPWARD ADJUSTMENTS

We reviewed the Standard Form-133, Report on Budget Execution and Budgetary
Resources, and the Agency’s Status of Available LAE Appropriations worksheets as of
September 30 for FYs 2005 through 2010. We gained an understanding of the effect
recoveries and upward adjustments had on the unobligated balance remaining in the
available annual LAE appropriation.

SSA stated, it “…must ensure that it manages its resources wisely, while avoiding
Anti-Deficiency Act violations. Sound fiduciary practices preclude relying on an
unknown recovery to cover upward adjustments to prior year obligations. Not having
some contingency funding to cover those adjustments could knowingly subject the
agency to Anti-Deficiency Act violations.”

Based on our review, we believe that, had SSA reviewed patterns of its prior year
obligations and performed trend analyses, it would have had ample time to identify and
reallocate funds during the FY to spend on various workloads. The recoveries
increased the unobligated balance available for transfer, and the upward adjustments
decreased the unobligated balance available for transfer. Cumulatively, recoveries of
prior year obligations exceeded upward adjustments by $356 million as of
September 30, 2010 for all the annual appropriations we reviewed. See Table 2 for the
cumulative recoveries and upward adjustments for the annual LAE appropriations we
reviewed. Table 2 shows that, historically, the upward adjustments were less than the
recoveries of prior year obligations for each annual appropriation.

                                       Table 2:
     Cumulative Change in the Unobligated Balance Available for Transfer Through
                                 September 30, 2010
             for the FY 2005 Through FY 2010 Annual LAE Appropriations
                                   ($ in millions)
                                               Annual LAE Appropriation
      Description
                          FY 2005   FY 2006   FY 2007   FY 2008   FY 2009   FY 2010   Total
      Recoveries           $180      $127      $198      $83       $153       $0      $741
 Upward Adjustments        $(51)     $(62)     $(96)     $(61)    $(115)      $0      $(385)
    Change in the          $129      $65       $102      $22       $38        $0      $356
 Unobligated Balance
 Available for Transfer

See Appendix C for details of recoveries, upward adjustments, and changes in
unobligated balance available for transfer for each annual LAE appropriation reviewed
through September 30, 2010.
Page 8 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
The Agency’s financial records show that, cumulatively, the FYs 2005 through
2010 annual LAE appropriations had recoveries of prior year obligations that exceeded
the upward adjustments to prior year obligations. As a result, SSA did not need the
unobligated annual LAE remaining at the end of the FY to cover upward adjustments to
existing obligations. Accordingly, we recommend that SSA review existing policy and
procedures and make changes as needed to decrease the amount of unobligated LAE
funds remaining at the end of each FY to cover potential upward adjustments in
obligations for future years.

SSA stated it “…plans to make changes as needed to decrease the amount of
unobligated LAE funds remaining at the end of each FY to cover potential upward
adjustments in obligations for future years.” Additionally, SSA stated, although the
Agency “…is reviewing existing policy and procedures, it is important to note the
amounts not spent were relatively small, amounting to approximately one percent of
SSA’s overall administrative budget.” By recognizing the need to make changes and
obligate more of its annual LAE funds, SSA can process more claims, work to reduce
backlogs, and/or conduct program integrity reviews and other activities to reduce the
disability backlog, improve the quality of the disability process, improve service, and
preserve the public’s trust in SSA’s programs.

SSA stated that, “…in FY 2010, the agency did reduce the amount held in reserve for
prior-year claims adjustments from $50 million to $25 million, and it is prudent for the
agency to set aside funds for uncertainties.” As of September 30, 2010, a total of
$135 million was unobligated and remaining in the FY 2010 annual LAE appropriation
(see Table 1). Subsequently, SSA transferred $80 million from the FY 2010 annual LAE
appropriation to the no-year LAE appropriation.

SSA also stated it is piloting an Agency-level initiative called Systematic Tracking of
Agency Resources (STAR) “…to assist components to better manage and to allow the
agency to better track usage of resources against component allowances. The
expected result of STAR will be to allow components and agency level reviewers an
opportunity to recognize unutilized resources earlier in the fiscal year that could be used
for other agency priorities.” We are encouraged by the steps SSA is taking to identify
and reallocate funds during each FY to spend on its various workloads.

AGENCY COMMENTS
SSA disagreed with our recommendation. SSA stated it manages its appropriations in a
sensible, robust manner, which allows it to meet its financial obligations and have
sufficient funds in prior year accounts to cover legitimate upward adjustments to
contracts or other spending actions that may be chargeable to those years. SSA further
stated it does not lapse annual funding to carry it over to the ITS no-year account. In
Page 9 - The Commissioner


addition, the Agency stated, “The Office of the Inspector General receives a separate
appropriation each year for administrative expenses and lapses funds at about the
same rate.” See Appendix E for the full text of SSA’s comments.

OIG RESPONSE
We are aware that SSA typically lapses 1 percent of LAE funding each year. We
recognize that SSA is transferring its unobligated funds from prior year accounts to the
no-year LAE appropriation in accordance with the language provided in the public law.
However, we continue to believe that earlier in the budget process, SSA can do an even
better job than it is doing to provide the most cost-effective use of resources for the
Agency’s growing workloads, reduce the disability backlog, and invest in program
integrity workloads.

We are committed to reducing OIG’s lapse of LAE funding to considerably less than
1 percent each FY. See Table 3 below for our lapsed funds for FYs 2008 through 2010.

                                       Table 3:
        OIG Lapse Percentage of the LAE Appropriation for FYs 2008 Through 2010

                                          Unobligated Balance,
  FY         LAE - OIG Allocation                                    Lapse Percentage
                                         Remaining at Year-End
 2008             $91,914,901                   $281,392                  0.306%
 2009             $99,505,700                   $375,212                  0.377%
 2010            $102,682,000                   $61,000                   0.059%




                                        Patrick P. O’Carroll, Jr.
                                      Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Changes in the Unobligated Balance Available for Transfer by
             Fiscal Year
APPENDIX D – Definitions of Key Budgetary Terms Used in the Report
APPENDIX E – Agency Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
 CR            Continuing Resolution

 FY            Fiscal Year

 GSA           General Services Administration

 ITS           Information Technology Systems

 LAE           Limitation on Administrative Expenses

 OIG           Office of the Inspector General

 OMB           Office of Management and Budget

 Pub. L. No.   Public Law Number

 SSOARS        Social Security Online Accounting and Reporting System

 SSA           Social Security Administration

 SSI           Supplemental Security Income

 STAR          Systematic Tracking of Agency Resources

 U.S.C.        United States Code
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable laws and regulations, and pertinent sections of the Social
    Security Administration’s (SSA) Accounting Manual related to the Limitation on
    Administrative Expenses (LAE) appropriation.

•   Interviewed personnel from SSA’s Office of Finance to obtain LAE’s
          o   annual unobligated balances;
          o   recoveries of prior year obligations;
          o   annual upward adjustments; and
          o   no-year transfers.

•   Calculated recoveries of prior year obligations using SSA’s reports to determine the
    difference between upward adjustments to prior year obligations and the change in
    unobligated balance available for transfer chargeable to an annual LAE
    appropriation in a fiscal year.

•   Reviewed the Standard Form-132, Apportionment and Reapportionment Schedule,
    for SSA’s approved transfer requests.

•   Gained an understanding of the transfer of unobligated funds from the annual LAE
    appropriation to the no-year LAE appropriation.

•   Reviewed the SF-133, Report on Budget Execution and Budgetary Resources, for
    LAE’s annual unobligated balances and upward adjustments

We conducted our work at SSA Headquarters in Baltimore, Maryland, in
December 2010. We determined that the data used in this report were sufficiently
reliable given the review objectives and their intended use. We conducted our audit in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.
                                                                     Appendix C

Changes in the Unobligated Balance Available for
Transfer by Fiscal Year
We reviewed the changes in the unobligated balance available for transfer (that is, the
net effect of recoveries of prior year obligations and upward adjustments to prior year
obligations) for Fiscal Years (FY) 2005 through 2010 annual Limitation on
Administrative Expenses (LAE) appropriations, as described below. As of
September 30 of each FY, recoveries exceeded upward adjustments to prior year
obligations with the exception of two FYs. In FY 2008, the upward adjustments to the
FY 2006 annual LAE appropriation totaled $4 million more than recoveries, and during
FY 2009, the upward adjustments to the FY 2007 annual LAE appropriation totaled
$30 million more than recoveries. See Table 1 for the recoveries, upward adjustments,
and changes in the unobligated balance available for transfer as of September 30 for
the FYs 2005 through 2010 annual LAE appropriations.

Adjustments to Prior Year Obligations in the First Quarter of FY 2011

At the end of FY 2010, $135 million was unobligated and remained in the FY 2010
annual LAE appropriation. However, the expired phase did not begin until FY 2011,
which started on October 1, 2010. By the end of the first quarter of FY 2011, the
Agency had identified $43 million in recoveries and $1 million in upward adjustments for
the FY 2010 annual LAE appropriation. Therefore, recoveries exceeded upward
adjustments by $42 million from October 1 through December 31, 2010.

The Agency also recorded $11 million in recoveries and $9 million in upward
adjustments to prior year obligations for the FYs 2006 through 2009 annual LAE
appropriations in the first quarter of FY 2011.

Because of adjustments to prior year obligations in the first quarter of FY 2011, the
cumulative recoveries and upward adjustments for the FYs 2006 through 2010 annual
LAE appropriations increased by $54 million and $10 million, respectively. Therefore,
cumulatively, recoveries exceeded upward adjustments by an additional $44 million for
the annual LAE appropriations we reviewed.




                                          C-1
                                                Table 1:
                   Changes in the Unobligated Balance Available for Transfer for the
                         FY 2005 Through 2009 Annual LAE Appropriations
                                            ($ in millions)
Appropriations


                                                          FYs (as of September 30)
   Annual




                                FY 2005   FY 2006    FY 2007      FY 2008   FY 2009   FY 2010   Total
                 Description




                 Recoveries                $72            $27       $20       $31      $30      $180
FY 2005




                   Upward
                                           $(15)      $(16)         $(7)      $(8)     $(5)     $(51)
                 Adjustments
                   Change                  $57            $11       $13       $23      $25      $129

                 Recoveries                               $70       $21       $19      $17      $127
FY 2006




                   Upward
                                                      $(17)        $(25)     $(13)     $(7)     $(62)
                 Adjustments
                   Change                                 $53       $(4)      $6       $10       $65

                 Recoveries                                        $100       $18      $80      $198
FY 2007




                   Upward
                                                                   $(43)     $(48)     $(5)     $(96)
                 Adjustments
                   Change                                           $57      $(30)     $75      $102

                 Recoveries                                                   $63      $20       $83
FY 2008




                   Upward
                                                                             $(44)     $(17)    $(61)
                 Adjustments
                   Change                                                     $19       $3       $22

                 Recoveries                                                            $153     $153
FY 2009




                   Upward
                                                                                      $(115)    $(115)
                 Adjustments
                   Change                                                              $38       $38




                                                    C-2
                                                                                  Appendix D

Definitions of Key Budgetary Terms Used in the
Report1

                         Authority delegated by the head or other authorized employee of
                         an agency to incur obligations within a specified amount, pursuant
                         to the Office of Management and Budget (OMB) apportionment or
Allotment
                         reapportionment action or other statutory authority making funds
                         available for obligation. Amount allotted cannot exceed the
                         amount apportioned by OMB.
                         A classification of authority below the allotment level that is issued
Allowance                to components to make funds available for spending.

Annual Budget            Budget authority that is available for obligation during only 1 fiscal
Authority                year or less.
(Appropriation)

                         An Anti-Deficiency Act violation occurs when one or more of the
                         following happens: overobligation or overexpenditure of an
                         appropriation or fund account (31 U.S.C. § 1341(a)); entering into
                         a contract or making an obligation in advance of an appropriation,
Anti-Deficiency
                         unless specifically authorized by law (31 U.S.C. § 1341(a));
Act Violation
                         acceptance of voluntary service, unless authorized by law
                         (31 U.S.C. § 1342); or overobligation or overexpenditure of (1) an
                         apportionment or reapportionment or (2) amounts permitted by the
                         administrative control of funds regulations (31 U.S.C. § 1517(a)).
                         A distribution made by OMB of amounts available for obligation in
                         an appropriation or fund account into amounts available for
                         specified time periods, program, activities, projects, objects, or any
Apportionment            combination of these. The apportioned amount limits the
                         obligations that may be incurred. An apportionment may be further
                         subdivided by an agency into allotments, suballotments, and
                         allocations.




1
 We obtained the majority of definitions from OMB Circular No. A-11; however, the allotment and
allowance definitions were obtained from the U.S. Department of Health and Human Services’ Food and
Drug Administration Staff Manual Guide. The Anti-Deficiency Act Violation definition was taken from the
Government Accountability Office’s Glossary of Terms Used in the Federal Budget Process
(September 2005, GAO-05-734SP).


                                                  D-1
                   A provision of law authorizing the expenditure of funds for a given
Appropriation      purpose. Usually, but not always, an appropriation provides
                   budget authority.

                   Authority provided by law to incur financial obligations that will
                   result in outlays. Specific forms of budget authority include
Budget Authority
                   appropriations, borrowing authority, contract authority, and
                   spending authority from offsetting collections.
                   During this time period, the budget authority is no longer available
                   for new obligations but is still available for disbursement. This
                   phase lasts five years after the last unexpired year unless the
Expired Phase      expiration period has been lengthened by legislation. Specifically,
                   you may not incur new obligations against expired budget
                   authority, but you may liquidate existing obligations by making
                   disbursements.
                   The language for a specific appropriation of budget authority or
No-year Budget
                   the authorization of the appropriation may make all or some
Authority
                   portion of the amount available until expended. That means you
(Appropriation)
                   can incur obligations against it indefinitely.

Recoveries of      The amount of cancellations of or downward adjustments to
Prior Year         unpaid obligations incurred in prior years.
Obligations

                   During this time period the budget authority is available for
                   incurring "new" obligations. You may make "new" grants or sign
Unexpired Phase
                   "new" contracts during this phase and you may make
                   disbursements to liquidate the obligations.
                   The cumulative amount of budget authority that is not obligated
Unobligated        and that remains available for obligation under law.
Balance


Upward             Upward adjustments of obligations reduce unobligated balances.
Adjustments of
Prior Recorded
Obligations




                                         D-2
                  Appendix E

Agency Comments
                                         SOCIAL SECURITY
MEMORANDUM


Date:      August 11, 2011                                                         Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis
           Deputy Chief of Staff /s/

Subject:   Office of the Inspector General Draft Report, “Follow-up: The Social Security Administration’s
           Use of the Limitation on Administrative Expenses Appropriation” (A-15-11-21170)--
           INFORMATION


           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Frances Cord at (410) 966-5787.

           Attachment




                                                          E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “THE SOCIAL SECURITY ADMINISTRATION’S USE OF THE
LIMITATION ON ADMINISTRATIVE EXPENSES APPROPRIATION”
(A-15-11-21170)

General Comments

This audit is a follow-up to your September 2010, Quick Response Evaluation (QRE), The Social
Security Administration’s Use of the Limitation on Administrative Expenses Appropriation.
Your latest report reflects the same conclusions as the previous QRE, and we continue to
disagree.

Your position, for the years studied, is that we could have managed our budget more effectively,
devoted more funds to processing claims and other workloads, and decreased unused balances
available for transfer to the information technology systems (ITS) account. Generally, you assert
that we use our Limitation on Administrative Expenses (LAE) funding and transfer authority
improperly. Characterized in this way, others have misconstrued our ITS transfer authority as a
“slush fund.” This characterization is regrettable since it leads the public to conclude that the
ITS carryover fund is not authorized and, more importantly, is used for an improper purpose.
The ITS carryover fund is a funding mechanism specifically authorized by Congress and
managed closely by the Office of Management and Budget (OMB).

Our fiscal year (FY) 1996 LAE appropriation stated, “[t]hat unobligated balances at the end of
fiscal year 1996 not needed for fiscal year 1996 shall remain available until expended for a state-
of-the-art computing network, including related equipment and administrative expenses
associated solely with this network.” A Senate report accompanying an earlier version of this
appropriations bill explained that this language “has been added specifying that funds
unobligated at the end of the fiscal year remain available until expended to augment multiyear
automation initiatives.” Based on Congress’ authorization and OMB’s approval, we transferred
available balances to our automation investment fund to fund a “state-of-the-art” computing
network that allowed us to provide our employees with desktop computers that were the
backbone for significant employee productivity improvements.

Congress included similar language in the FY 2001 appropriation that allowed us to carry
forward unobligated LAE funds to invest in LAE ITS costs. Congress has continued to provide
this authority in every succeeding appropriations act since FY 2001. The legislative history is
clear: Congress has specifically authorized our LAE unobligated funds carryover mechanism.

We concur with the statements in your reports that the language included in the annual LAE
appropriation does not automatically authorize the transfer of funds to the ITS no-year account.
OMB oversees the entire budget and ITS carryover processes to ensure that funding decisions are
transparent and justified. We must justify the transfer to OMB, and OMB must give us formal
approval through the apportionment process before we can transfer and spend any funds.
Moreover, available ITS carryover funding factors into our annual budget request. During the
budget process, we work with OMB to determine how much of our information technology (IT)




                                                E-2
needs will be covered with ITS carryover funding, thereby decreasing the amount of new
funding we may need in any given year.

Recommendation

Review existing policy, procedures, and make changes as needed to decrease the amount of
unobligated LAE funds remaining at the end of each fiscal year to cover potential upward
adjustments in obligations for future years

Response

We disagree.

We manage our appropriations in a sensible, robust manner. We meet our financial obligations
and have sufficient funds in our prior year accounts to cover legitimate upward adjustments to
contracts or other spending actions that may be chargeable to those years. We typically lapse
only about one percent of our LAE funding each year. The Office of the Inspector General
receives a separate appropriation each year for administrative expenses and lapses funds at about
the same rate.

Because decreases in our obligations exceeded increases in FY’s 2005 through 2010, you
concluded that the agency had the opportunity to use more of its annual LAE funds to reduce the
disability backlog and invest in program integrity workloads. We have a long history of sound
financial management practices that avoid Anti-Deficiency Act violations. We cannot make
business decisions that depend on the possibility of obligations coming in lower than estimated.
In FY’s 2000, 2001, and 2002, the net changes in obligations were higher than at the close of the
fiscal year. Fortunately, we had funds in those years to cover the increases.

Under our current process, we allocate annual resources as soon as we have an appropriation
from Congress and approved apportionments from OMB. We continually monitor our resources
and reallocate them to our highest priorities as the year progresses. We also recently
implemented a system that strategically tracks agency resources. It would be imprudent to over
allocate resources by assuming that we might free up money toward the end of the fiscal year.
With nearly 80,000 Federal and State employees, small swings in salary or benefit costs equal
millions of dollars. An over allocation could cause an Anti-Deficiency Act violation if costs are
not lower than we assumed.

When we receive a budget each year, we determine the level of staff we can fund and support in
future fiscal years. Your suggestion that we use annual LAE resources more aggressively to
process more claims and complete program integrity work would require us to hire additional
staff. Prolonged continuing resolutions can delay the hiring process. Uncertainty about future
funding makes it difficult to predict how many employees we can support in future years. We
cannot make long-term commitments to hire employees when future budgets may not support
retaining them, potentially forcing us to implement furloughs or other drastic cost saving
measures.




                                               E-3
We do not lapse annual funding in order to carry it over to the ITS no-year account.
Nevertheless, with the complexity of our budget, two-thirds of which is payroll costs, a small
amount of lapsed resources is unavoidable and often necessary to avoid an Anti-Deficiency Act
violation.

ITS transfer authority allows us to make technology improvements that help our employees work
more efficiently. Our IT investments have helped us achieve average annual employee
productivity increases about 4 percent each of the last four years. Most of our annual ITS
funding is necessary for ongoing operational costs such as our 800 number service and our
online services, among others. It also helps us maintain sufficient capacity to store ever-
increasing amounts of data. Additionally, prior year resources helped fund IT projects such as
making our disability process fully electronic, developing robust and user-friendly online
services, and opening our second data center. Without these IT investments, we would not have
been able to keep pace with the recent increases in claims. If we did not have the ITS transfer
authority but still invested the same amount of resources in IT enhancements to improve
employee productivity so we could keep pace with growing workloads, we would have
completed nearly 1 million fewer disability claims or nearly 500,000 fewer hearings since
FY 2001.




                                              E-4
                                                                     Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Victoria Vetter, Director, Financial Audit Division

   Deborah Kinsey, Audit Manager

Acknowledgments

In addition to those named above:

   Yvasne Simmons, Senior Auditor

For additional copies of this report, please visit our Website at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-15-11-21170.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
